TN
COCKE

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-992
GREG SKIPPER, WARDEN,
Petitioner,
v.
CURTIS JEROME BYRD,
Respondent.
AFFIDAVIT OF SERVICE.

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 7th day of April, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the RESPONDENT’S BRIEF IN OPPOSITION TO THE PETITION
FOR WRIT OF CERTIORARI in the above entitled case. All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
ELIZABETH L. JACOBS
615 Griswold, Suite 1125
Detroit, MI 48226
(248) 891-9844
elzjacobs@aol.com

Subscribed and sworn to before me this 7th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

i GENERAL BOTARY-State of Mebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

      

Notary Public Al

ffiant

Oudrowh. Glle

 
 

 

Attorneys for Petitioner

Fadwa A. Hammoud Michigan Department Attorney General 517-335-7628
Counsel of Record 525 W. Ottawa St.
Lansing, MI 48933

HammoudF 1@michigan.gov

Party name: Greg Skipper, Warden

 

 
